                                                      Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   ACTION: Report on Review of Slow Orders and               Date:    December 10, 2003
           Track Reclassification
           Federal Railroad Administration
           MH-2004-007


  From:    Alexis M. Stefani                                      Reply to    JA-40
                                                                  Attn. of:
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Railroad Administrator

           This report presents the results of our review of slow orders and track
           reclassification, as discussed in our meeting with you on September 12, 2003.
           Slow orders are temporary speed restrictions used when work activities or track
           conditions restrict the safe movement of trains at regular designated speeds. Track
           reclassification involves a permanent change in the speed allowed over a section
           of track.

           Our objective was to evaluate the Federal Railroad Administration’s (FRA)
           oversight of the use of slow orders and track reclassification and the effects of
           their use on railroad track safety and service schedules. In addition, we sought to
           determine whether slow orders were used to defer maintenance, crossties and rail
           were replaced at an adequate rate, and delays were increasing due to reductions in
           track investment.

           BACKGROUND

           Slow orders to lower the speed limit for trains are required when tracks do not
           meet FRA standards for the designated speeds, are weakened due to construction
           or maintenance work, or are damaged by accidents. In addition, slow orders may
           be imposed when adverse weather conditions are present. Slow orders are only
           temporary, but no industry-wide definition exists for the term “temporary.”
           Because slow orders may be imposed for varying durations of time (hours, days,
                                                                                                   2

weeks), a simple count may be misleading when analyzing slow orders. Other
considerations include the length of track involved and the reason for the slow
orders. For example, slow orders may be imposed not only when track conditions
have worsened, but also during repair work and after track rehabilitation has been
completed, to allow the roadbed to settle.

The roadbed provides the foundation for the railroads’ rails and crossties.
Improper use of ballast—material, usually crushed stone gravel, placed on the
roadbed to anchor the track—could allow the rails to shift position, resulting in
derailment.

Track may be reclassified to a different speed limit if economic and engineering
conditions permanently change. Permanent track speed is based on factors such as
customer service requirements, total system schedules, the ability of rail yards to
receive and process trains, the terrain that the track traverses, local government
requirements, the train control system, and track construction.

RESULTS

FRA has no recordkeeping and reporting requirements governing slow orders, and
neither FRA nor two of the three railroads we visited maintain detailed historical
records of slow orders. CSX Transportation (CSXT) maintained detailed slow
order data, Norfolk Southern (NS) could not provide data on all operating
divisions, and Amtrak did not maintain a historical database of its slow orders.
The differences in the availability of data on slow orders and the lack of data
comparability between the railroads made a detailed analysis difficult. Therefore,
we focused our review on analyzing investment data covering the last 20 years for
the four largest Class I railroads1: CSXT, NS, Burlington Northern Santa Fe
(BNSF), and Union Pacific (UP). Exhibit A describes our audit methodology.

From the data available to us, we could not determine whether slow orders had an
impact on railroad track safety or were the source of increasing train delays and
on-time performance problems, particularly for Amtrak passenger trains.
However, slow order data for CSXT, which was the most complete for the three
railroads we visited, indicated that 91 percent of the 16,150 slow orders issued in
2002 that were related to track defects were removed within 30 days. Given the
growing congestion on the entire freight railroad network, the more likely
explanation for poor on-time performance may be the difference in corporate
priorities between freight carriers and Amtrak and the inability of Amtrak’s
incentive payments to promote better on-time performance. However, without

1
    Class I railroads are the largest railroads, having annual carrier operating revenue of more than
    $250 million.
                                                                                   3

sufficient slow order data, FRA cannot determine whether the use of slow orders
has a bearing on rail service and congestion or seek the appropriate
accommodations from the railroads, including Amtrak.

In general, we found overall levels of roadway investment by Class I freight
railroads have increased steadily since 1980 (see Exhibit B). We also found the
rate of crosstie and rail replacements for the four major Class I railroads we
reviewed to be consistent with FRA’s safety standards. However, we identified
certain situations that FRA should monitor. For example, the long-term rate of
CSXT ballast replacement was significantly lower than that of the other three
Class I freight railroads in our review, which could impact track stability, and over
time, track quality. In addition, while the 20-year trend does not indicate a
problem, replacement of crossties and rail by some railroads has declined in recent
years and should be monitored.

Maintenance Practices

The reclassification of railroad track to permanently change its speed limit is
primarily an economic decision and used very infrequently, according to the senior
railroad officials we interviewed. Slow orders to reduce the speed of trains to the
current condition of the track, however, are used extensively as a necessary, but
temporary, tool for ensuring railroad track safety.

When conducting inspections, FRA informs the railroads of any safety defects
(instances of noncompliance with the standards) that require slow orders. In those
cases where voluntary compliance has not been undertaken by the railroad, FRA
inspectors may issue a special notice for repairs to slow down train speeds until
repairs are completed. In Fiscal Year (FY) 2002, FRA issued only two special
notices for repairs.

For CSXT─the only railroad with detailed slow order information─16,150 or
53 percent of the slow orders issued in 2002 were related to track defects and
12,658 or 42 percent were related to maintenance. In addition, 14,666 or
91 percent of the slow orders related to track defects and 12,388 or 98 percent of
those related to maintenance were removed within 30 days, indicating that track
maintenance was not being deferred.

Railroad Investment in Roadway

Our analysis of data covering the last 20 years disclosed that Class I freight
railroads have consistently increased their total investments in roadway even
though the amounts invested by individual railroads may have fluctuated (see
Exhibit B-1). We considered an annual replacement rate of 63 crossties per mile
                                                                                                           4

to be adequate, based on the Code of Federal Regulations (CFR) criteria for track
safety standards. In addition, we evaluated the adequacy of rail replacement based
on an industry estimate of a 60-year useful life. We assessed ballast replacement
based on comparative rates used by the Class I railroads we reviewed, because no
industry standard exists for ballast replacement. In analyzing these railroads’
annual R-1 reports,2 we found with few exceptions, crossties, rails, and ballast
were replaced at adequate rates from 1983 through 2002. (See Exhibits C, D, and
E.) For example, in 2001 and 2002, CSXT reduced its capital expenditures, but
maintained a high level of crosstie replacement at 91 and 86 crossties per mile,
respectively.

The one exception that raised concern was the rate of CSXT ballast replacement,
which was significantly below that of the other three Class I freight railroads
reviewed. We are concerned the magnitude of this difference could affect track
quality, particularly since 1998 FRA safety audits have repeatedly identified
systemwide deficiencies in the condition of CSXT’s ballast. These deficiencies,
together with other serious track conditions, led to FRA’s 1-year compliance
agreement with CSXT in 2000, and a similar follow-up agreement in 2001.

Furthermore, from January through July 2002 two major Amtrak derailments
occurred on CSXT trackage. FRA conducted a “focused inspection” in
August 2002 of all CSXT track supporting passenger service, targeting CSXT’s
compliance with its own ballast standards as a major element of those inspections.
Of the 4,770 CSXT route miles covered, FRA found that 511 track miles were not
in compliance.3 FRA should work with CSXT to determine whether CSXT ballast
practices represent a safety issue and, if so, resolve them and prevent their
recurrence.

We also noted two additional exceptions of potential concern. While our analysis
of the last 20 years of data from the Class I freight railroads showed no indication
of inadequate crosstie or rail replacement in general, the annual rate of
replacement of crossties and rail by some railroads in recent years has declined.
FRA should review the R-1 reports to monitor these trends and ensure adequate
levels of roadway investments are maintained. Slow order data would also be
useful for targeting individual railroads for FRA safety inspections.




2
    Class I Railroad Annual Reports to the Surface Transportation Board (R-1 Reports).
3
    A route mile is the distance between terminals or stations and a track mile is the length of single track
    between two points. One route mile of double track, therefore, equals two track miles; one route mile of
    triple track equals three track miles; and so forth.
                                                                                   5

Passenger Service Delays From Slow Orders, Scheduling, and Congestion

Of great concern to passenger service is schedule adherence and the potential that
a growth in slow orders could lead to schedule delays. (See Exhibit F for a
description of Amtrak delays on CSXT, NS, BNSF, and UP track.) Amtrak’s train
delays due to slow orders, however, are only a part of its overall delays. More
important are larger underlying issues involving conflicting corporate priorities
between freight and passenger operations and the growth of congestion on the
existing rail network.

Corporate Priorities. Amtrak conducts 70 percent of its operations over tracks
owned by freight railroads. The corporate priorities of these host railroads are
focused on providing low-cost freight service to their shippers, while Amtrak
gives top priority to fast, on-time service for its passengers. Although the
legislation that created Amtrak granted it preference over freight traffic regarding
track use, these corporate priorities, nevertheless, often clash because of the
differing attributes of efficient passenger and freight operations.

Amtrak tries to avoid schedule delays by offering incentive payments to its host
railroads for providing on-time performance for its trains. Amtrak is at a distinct
disadvantage, however, because it has had insufficient funds to offer incentives
that would make it lucrative for freight railroads to provide the level of service it
needs. None of the host railroads we reviewed took full advantage of the available
incentives. For example, in FY 2002, one railroad we reviewed received only
$484,000 in incentive payments from Amtrak for on-time performance and passed
on the opportunity to earn an additional $23 million. Another large railroad we
reviewed had also passed up nearly $14 million in incentive payments, and was
penalized about $100,000 for delays that resulted in Amtrak meeting on-time
performance less than 70 percent of the time.

If it made financial sense for the railroads, they would provide the service to
capture these payments. However, according to management at the railroads we
interviewed, the scheduling Amtrak requires does not fit their freight
transportation operations, and the costs that would be incurred for such scheduling
exceed the amount of the incentives.

Increasing Traffic Congestion. Despite the railroads’ investments, certain parts
of the railroad system have become severely congested and cannot accommodate
the conflicting demands of both increasing freight movement and increasing
commuter and intercity passenger rail traffic. Railroad traffic has increased
64 percent since 1980, and the U.S. Department of Transportation forecasts predict
rail tonnage will increase well over 50 percent between 2003 and 2020.
                                                                                  6

Magnifying the congestion from traffic growth are numerous “choke points,”
which are bottleneck points in the overall rail network that adversely constrain the
effective use of the rest of the railroad system. Choke points include antiquated
and undersized bridges and tunnels, stretches of mainline track with inadequate
vertical clearances for double-stack container traffic, inadequate connections
between rail lines, and outmoded information and control systems. A 2002 Mid-
Atlantic Rail Operations Study sponsored by Amtrak, CSXT, NS, and five state
departments of transportation found a lack of capacity on critical segments of
freight and passenger lines that must be rectified to reduce or eliminate operating
conflicts between passenger and freight trains.

Slow Order Data. The limited availability of and inconsistencies in existing data
on slow orders do not allow a determination to be made on the impacts that slow
orders may be having on rail service or traffic congestion. Without such data,
FRA will not be able to resolve current and future concerns about the use of slow
orders, or pursue the appropriate accommodations from the freight railroads and
Amtrak.

RECOMMENDATIONS

We recommend that the Federal Railroad Administrator:

1. Review CSXT ballast replacement practices, and follow-up on ballast
   deficiencies noted during previous FRA safety audits and inspections.

2. Monitor railroad R-1 reports on a continuous basis to identify potential
   problems in roadway investment, such as ballast, and use the information to
   target safety inspections on individual railroads.
                                                                                7

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On December 9, 2003 FRA provided verbal comments on our report. The FRA
Administrator stated that FRA was in agreement with our recommendations,
which reflect sound business practices.

FRA’s proposed actions address the intent of our recommendations. FRA has
begun efforts to review CSXT ballast practices and monitor railroad R-1 reports to
identify potential problems in roadway investment.

ACTION REQUIRED

In accordance with Department of Transportation Order 8000.1C, we request that
within 30 days you provide milestones for completing intended actions for both
recommendations.

We appreciate the courtesies and cooperation extended by your staff. If you have
any questions concerning this report, please call me at (202) 366-1992, or
Debra S. Ritt, Assistant Inspector General for Surface and Maritime Programs, at
(202) 493-0331.
                                                                                  8


                   EXHIBIT A. AUDIT METHODOLOGY


To determine the railroads’ use of slow orders and track reclassification, we
reviewed slow order and track reclassification policies and procedures, documents,
and R-1 reports from 1983 to 2002, at FRA and three judgmentally selected
railroads: CSXT, NS, and Amtrak. CSXT and NS are respectively, the largest,
and second largest, freight railroads in the Eastern United States. Amtrak, the sole
intercity U.S. passenger rail carrier in the continental United States, owns only
about 730 miles of track, primarily between Boston and Washington, D.C., and
operates more of its trains over CSXT track than that of any other host railroad.

We interviewed officials at FRA, the three railroads above, the Association of
American Railroads, the STB, and the NTSB. In addition, we analyzed
investments made by the four largest Class I railroads─CSXT, NS, BNSF and
UP─between 1983 and 2002 in crossties, rail, and ballast replacement. FRA has
no Government Performance and Results Act measurements relating to slow
orders or track reclassification. We performed our review in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.
                                                                                                                     9




                   EXHIBIT B. CLASS I EXPENDITURES PER TRACK MILE ON ROADWAY
                               COMPARED TO MILES OF TRACK OWNED
                                              (2002 $)
Expenditures                                                                                                 Miles
  $35,000                                                                                                300,000



  $30,000
                                                                                                         250,000


  $25,000
                                                                                                         200,000

  $20,000

                                                                                                         150,000

  $15,000

                                                                                                         100,000
  $10,000


                                                                  Expenditures Per Track Mile            50,000
   $5,000
                                                                  Miles of Track Owned


      $0                                                                                                 0
            1980    1982     1984   1986   1988   1990   1992   1994    1996     1998      2000   2002

  Source: Railroad Facts by AAR
                                                                                                                            10



                             EXHIBIT B-1. EXPENDITURES PER TRACK MILE ON ROADWAY*
                                                (CSXT, NS, BNSF, UP)
                                                      (2002 $)
   $35,000

                      CSX
                      NS
   $30,000
                      BNSF
                      UP

   $25,000




   $20,000




   $15,000




   $10,000




    $5,000




      $0
             1983 1984 1985 1986 1987 1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002


*Includes - Bridges, Trestles, and Culverts; Crossties; Rail and Other Track Material; Ballast; Signals and Interlockings
Source: R-1 Reports to STB
                                                                                                                             11



                                                  EXHIBIT C. CROSSTIES REPLACED
                                                        (CSXT, NS, BNSF, UP)


                        Crossties Replaced                                          Average Annual Crossties Replaced
                    Per Track Mile (1983 - 2002)                                       Per Track Mile (1983 - 2002 )

120                                                                            90


                                                                               80
100
                                                                               70


80                                                                             60


                                                                               50
60
                                                                               40


40                                                                             30


                                                                               20
20
                            CSXT          NS      BNSF      UP
                                                                               10


 0                                                                             0
      1983   1985   1987   1989    1991    1993   1995   1997    1999   2001        CSXT        NS        BNSF          UP



 Source: R-1 Reports to STB
                                                                                                         12



                                           EXHIBIT D. RAIL REPLACED
                                              (CSXT, NS, BNSF, UP)


                 Miles of Rail Replaced                            Average Miles of Rail Replaced
              Per Track Mile (1983 - 20002)                         Per Track Mile (1983 - 2002)

0.07                                                       0.045


                                                           0.040
0.06

                                                           0.035

0.05
                                                           0.030

0.04                                                       0.025


0.03                                                       0.020


                                                           0.015
0.02

                                                           0.010

0.01
                                                           0.005
                        CSXT    NS     BNSF    UP

0.00                                                       0.000
       1983 1985 1987 1989 1991 1993 1995 1997 1999 2001           CSXT       NS        BNSF        UP


 Source: R-1 Reports to STB
                                                                                                                              13



                                                   EXHIBIT E. BALLAST REPLACED
                                                        (CSXT, NS, BNSF, UP)


             Cubic Yards of Ballast Replaced                                        Average Annual Cubic Yards of Ballast
               Per Track Mile (1983 - 2002)                                          Replaced Per Track Mile (1983 - 2002)

200                                                                           120

180

                                                                              100
160


140
                                                                              80
120


100                                                                           60

80

                                                                              40
60


40
                                                                              20
20
                           CSXT          NS      BNSF      UP
 0                                                                             0
      1983   1985   1987   1989   1991    1993   1995   1997    1999   2001           CSXT        NS         BNSF        UP


      Source: R-1 Reports to STB
                                                                                14




EXHIBIT F. AMTRAK DELAYS ON THE FOUR LARGEST CLASS I
                 RAILROADS IN FY 2002

                     Total        Percent                    Percent
                   Minutes of       of         Total Train   of Train
  Railroad           Delay         Delay         Miles        Miles     Rate*
  CSXT               1,058,766     29.9%         6,746,841     31.5%    1,569
  NS                   486,537     13.7%         2,994,620     14.0%    1,625
  BNSF                 686,069     19.4%         6,409,527     30.0%    1,070
  UP                 1,313,249     37.0%         5,238,804     24.5%    2,507
  Total              3,544,621                  21,389,792              1,657

  *Rate = Minutes of delay per 10,000 train miles.




  Source: Amtrak
                                                                 15

     EXHIBIT G. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.

Name                         Title

Debra S. Ritt                Assistant Inspector General for
                             Surface and Maritime Programs

Mark R. Dayton               Assistant Inspector General for
                             Competition and Economic Analysis

Michael E. Goldstein         Program Director

Jeffrey Ong                  Project Manager

Stephen Gruner               Senior Analyst

Carl Christian               Senior Analyst

Marvin E. Tuxhorn            Senior Auditor

Doral Hill                   Auditor

Harriet Lambert              Editor
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to assist screenreaders.
            EXHIBIT B. CLASS I EXPENDITURES PER TRACK MILE ON ROADWAY
                         COMPARED TO MILES OF TRACK OWNED
                                       (2002 $)

                                                      Expenditures
                                          Miles of      Per Track
                                Year   Track Owned        Mile
                                1980        270,623   $       7,689
                                1981        267,589   $       9,039
                                1982        263,330   $       9,093
                                1983        258,703   $      15,518
                                1984        252,748   $      19,557
                                1985        242,320   $      23,719
                                1986        233,205   $      20,567
                                1987        220,518   $      16,793
                                1988        213,669   $      18,867
                                1989        208,322   $      17,725
                                1990        200,074   $      18,306
                                1991        196,081   $      16,040
                                1992        190,591   $      18,572
                                1993        186,288   $      19,259
                                1994        183,685   $      21,690
                                1995        180,419   $      24,453
                                1996        176,978   $      25,599
                                1997        172,564   $      27,319
                                1998        171,098   $      32,142
                                1999        168,979   $      29,746
                                2000        168,535   $      27,959
                                2001        167,275   $      26,624
                                2002        169,554   $      27,398

Source: Railroad Facts by AAR




                                              Exhibit B                 Page 1
                                     EXHIBIT B-1. EXPENDITURES PER TRACK MILE ON ROADWAY*
                                                       (CSXT, NS, BNSF, UP)
                                                              (2002 $)

Railroad       1983         1984         1985         1986       1987           1988         1989         1990         1991         1992         1993
CSX        $   15,338   $   13,990   $   19,570   $   18,804   $ 24,858     $   14,803   $   18,678   $   15,249   $   10,771   $   12,014   $   11,651
NS         $   12,398   $   14,385   $   22,897   $   20,721   $ 17,671     $   20,553   $   22,784   $   16,601   $   15,372   $   16,710   $   14,923
BNSF       $   12,481   $   18,189   $   19,973   $   13,708   $ 9,475      $   10,320   $   11,168   $   11,160   $   11,288   $   14,556   $   15,896
UP         $   14,017   $   22,052   $   19,266   $   16,765   $ 17,806     $   14,938   $   16,282   $   17,514   $   15,266   $   17,496   $   16,914

           *Includes - Bridges, Tresles, and Culverts; Crossties; Rail and Other Track Material; Ballast; Signals and Interlockings

           Source: R-1 Reports to STB




                                                                          Exhibit B-1                                                                     Page 2
Railroad       1994         1995         1996         1997         1998           1999         2000       2001         2002
CSX        $   11,338   $   12,938   $   16,470   $   14,592   $   19,982     $   17,499   $   27,735   $ 18,458   $   15,845
NS         $   15,978   $   17,668   $   15,494   $   15,803   $   21,691     $   13,674   $   11,549   $ 9,787    $   13,872
BNSF       $   21,783   $   20,150   $   26,685   $   28,431   $   32,403     $   24,734   $   23,176   $ 25,022   $   25,340
UP         $   17,988   $   21,202   $   19,713   $   23,312   $   26,233     $   27,183   $   28,006   $ 27,388   $   29,258




                                                                            Exhibit B-1                                         Page 3
                                               EXHIBIT C. CROSSTIES REPLACED
                                                     (CSXT, NS, BNSF, UP)

                                         Crossties Replaced Per Track Mile (1983 - 2002)

Railroad     1983        1984       1985      1986       1987        1988     1989         1990     1991     1992     1993
CSX              75          72         83        82         68          54       65           68       57       62       64
NS               67          62        101       103         94          88       88           87       84       90       73
BNSF             96         108         98        71         43          54       55           63       62       72       75
UP               80          99         71        67         67          62       56           69       59       63       62



                                  Average Annual Crossties Replaced Per Track Mile (1983 - 2002)

                                                       Railroad    Average
                                                       CSX              71
                                                       NS               78
                                                       BNSF             68
                                                       UP               68

           Source: R-1 Reports to STB




                                                                  Exhibit C                                                    Page 4
Railroad   1994     1995     1996     1997     1998        1999     2000     2001     2002
CSX            64       69       78       64       68          69       88       91       86
NS             74       80       80       78       81          54       43       49       89
BNSF           63       61       75       60       46          49       58       63       54
UP             55       60       79       70       50          58       63       71       94




                                                        Exhibit C                              Page 5
                                                   EXHIBIT D. RAIL REPLACED
                                                     (CSXT, NS, BNSF, UP)

                                        Miles of Rail Replaced Per Track Mile (1983 - 2002)

Railroad     1983        1984       1985      1986       1987        1988      1989           1990     1991     1992     1993
CSX           0.040       0.043      0.054     0.049      0.027       0.037     0.031          0.034    0.021    0.031    0.027
NS            0.040       0.039      0.059     0.065      0.050       0.046     0.043          0.043    0.040    0.047    0.037
BNSF          0.044       0.060      0.065     0.036      0.026       0.033     0.029          0.034    0.037    0.045    0.045
UP            0.045       0.064      0.054     0.038      0.050       0.033     0.025          0.030    0.023    0.028    0.041



                                    Average Miles of Rail Replaced Per Track Mile (1983 - 2002)

                                                       Railroad    Average
                                                       CSX            0.032
                                                       NS             0.037
                                                       BNSF           0.041
                                                       UP             0.041

           Source: R-1 Reports to STB




                                                                  Exhibit D                                                       Page 6
Railroad   1994     1995     1996     1997     1998     1999        2000     2001     2002
CSX         0.027    0.026    0.028    0.025    0.028    0.022       0.026    0.024    0.027
NS          0.028    0.032    0.028    0.026    0.030    0.016       0.021    0.013    0.014
BNSF        0.038    0.038    0.048    0.042    0.040    0.039       0.033    0.042    0.033
UP          0.035    0.029    0.053    0.034    0.039    0.050       0.044    0.048    0.045




                                                        Exhibit D                              Page 7
                                                    EXHIBIT E. BALLAST REPLACED
                                                        (CSXT, NS, BNSF, UP)

                                        Cubic Yards of Ballast Placed Per Track Mile (1983 - 2002)

Railroad     1983        1984        1985         1986       1987        1988      1989       1990     1991     1992     1993
CSX              92          81         100           77         66          74        77         62       55       57       51
NS               79          66         112          125        103         101        99        113      100      109       90
BNSF            141         137         113           86        128         113        98        103       94      133      127
UP               81         108          81          108        102          65        60         97       95       93       89



                                  Average Cubic Yards of Ballast Placed Per Track Mile (1983 - 2002)

                                                           Railroad    Average
                                                           CSX              59
                                                           NS               87
                                                           BNSF            107
                                                           UP               93

           Source: R-1 Reports to STB




                                                                      Exhibit E                                                   Page 8
Railroad   1994     1995     1996     1997     1998        1999     2000     2001     2002
CSX            52       50       53       40       39          24       27       28       49
NS             83       82       82       77       77          45       59       55       75
BNSF          147      124      132      130       90          71       61       34       53
UP             77       72       95       70       88          99      121      184       90




                                                        Exhibit E                              Page 9
